No.19-__

IN THE

~upreme

QCourt of tbe mntteb ~tates
JON ERIC SHAFFER,

Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA,

Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
7,651 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty ofpeijury that the foregoing is true and correct.

Colin Casey Hoga
Wilson-Epes Prin ing Co., Inc.

